No. 19-1366

tbe fPuprone Court of Hie 1 initeb *tateo
SHIYANG HUANG, PETITIONER

VALESKA SCHULTZ, MELANIE WAUGH, ROSALIND STALEY,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS SIMILARLY
SITUATED, ET AL.,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

SUPPLEMENTAL BRIEF FOR PETITIONER

SHIYANG HUANG

Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
d,efectivesettlement(cgmail. cone

RECEIVED
JUL 13 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

SUPPLEMENTAL BRIEF FOR PETITIONER
•

Petitioner Shiyang Huang respectfully submits this brief in
light of the Court's decision in Thole v. U.S. Bank, N.A., 140 S.
Ct. 1615 (U.S. Jun. 1, 2020).
In May 2020, petitioner Shiyang Huang filed a petition for a
writ of certiorari to review the Eighth Circuit's opinions that all
plaintiffs in this case (particularly petitioner himself, an
unnamed class member) have Article III standing for a final
judgment under Federal Rules of Civil Procedure 23.

•

The petition noted (at 12, 15) that this Court's decision in
Thole may support petitioner's key argument that he himseUf is
a class member without any prospective injury for standing.
Compare C.A. Plaintiffs Br. 31 ("former participants like
[petitioner] have no stake in forward-looking relief") with
Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036, 1053 (2016)
(Roberts, C.J., concurring) ("Article III does not give federal
courts the power to order relief to any uninjured plaintiff, class
action or not.") Deposit Guar. Nat. Bank v. Roper, 445 U.S. 326,
332 (1980) (noting Rule 23 as only an "ancillary" device.)
After the petition was filed, this Court decided Thole and
indeed held that Thole petitioners lack Article III standing. 140
S. Ct. at 1619. Petitioner emphatically agrees with respondents'
position below that "former participants like [petitioner] have
no stake in forward-looking relief". C.A. Plaintiffs Br. 31.
(emphasis added). As petitioner's lack of Article III standing for
future relief is abundantly clear, this Court should grant the
writ and use this excellent vehicle to close Courts of Appeals'
unyielding four-way conflict on Article III standing standards
for unnamed and uninjured class members under Rule 23.
Petition 12-14. Thole also may suggest GVR as option, with
"reasonable probability" that the Eighth Circuit may overturn
its prior judgment. Lawrence v. Chater, 516 U.S. 163, 167 (1996).
(1)

2

First, Thole agrees with petitioner Huang and plaintiffs
respondents' position that Huang is an uninjured class member
who cannot be redressed by "prospective relief". Petition 1. This
Court in Thole similarly held litigants with "no concrete stake in
the lawsuit" lack Article III standing for a judgment to "affect
their future benefit". Thole, 140 S. Ct. at 1619-20 (emphasis
added). The judgments below must be reversed for lack of
subject-matter jurisdiction, and the mandatory, non-opt-out
class certification below—with nearly half the purported "class"
without standing for prospective relief—cannot be upheld.
McNutt v. GMAC, 298 U.S. 178, 189 (1936). (Article III
standing must be justified by a "preponderance of evidence.")
In this case, Huang has no risk of future harm as a past
participant. Petition 8 & n.4. That is even less than Thole' in
the prospective sense—Huang cannot benefit from prospective
relief to a Plan he is no longer a member of. Ibid. Settling
parties' Plan-wide injunctions "would not affect [Huang's]
future benefit", and Huang "ha[s] no concrete stake in the
lawsuit." Thole, supra. Huang lacks Article III standing for
prospective relief, and the judgment below is irreconcilable with
threshold Article III minimum that any party must prove
Article III standing for each form of relief. Petition 1 (quoting
Town of Chester v. Laroe Estates, 137 S. Ct. 1645, 1650 (2017)).
Second, the Eighth Circuit erred in its Article III standing
examination, particularly to absentees such as petitioner under
Fed. R. Civ. Proc. 23. The Solicitor General's CVSG brief in
Thole argued that the Eighth Circuit also erred to decide Thole
for "statutory standing". Brief for the United States as Amicus
Curiae, Thole v. U.S. Bank, 2019 WL 2209252, *1344 (U.S. May
The full Court agrees that Thole petitioners may still sue if their future
payments cannot be received, Thole, 140 S. Ct. at 1621, 1622 n.2 (noting the
"last wrinkle" as only presented by amici); id. at 1630 (dissenting op.)
(noting Thole petitioners remain interested "in their retirement plan's
financial integrity" as current Plan members).

3
21, 2019). This Court agreed with the Solicitor General by
adding the Article III question and later affirmed dismissal on
lack of standing. Thole, 140 S. Ct. at 1619-20. But here, the
Eighth Circuit's erroneous affirmance below remains an
advisory opinion. See Pet. App. 2a; Petition 14 (noting the
Eighth Circuit's self-contradictory precedents on absent class
members' Article III standing); Id. at 16 (arguing petitioner
himself lacks standing). Thole agrees that petitioner has "no
concrete stake" for future relief, and parties here agreed also.
Id. at 8 n.4. Once petitioner's standing is shaved to the past, the
Court can also reach the second question presented—whether a
mandatory class-action may bypass opt-out safeguards under
Due Process and contort class members' monetary relief claims.
This is an exceptionally clean vehicle to review "whether a
Rule 23 class-action may include uninjured class members",
such as petitioner. This is now a diverging jurisdictional hazard
splitting nine circuits into four sides, with three circuits already
self-split. See Petition 12-14. If the Court decides to GVR, it
should ask the Eighth Circuit to particularly focus on
petitioner's lack of Article III standing for prospective relief.
CONCLUSION
The petition should be granted.
Respectfully Submitted,
/S/ SHIYANG HUANG

SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
defectivesettlernent@gmail.com
JULY 2020

